Audit of NLRB's Efforts Regarding the Year 2000 Problem, Report No. OIG-AMR-27
Audit of NLRB's Efforts Regarding the Year 2000 Problem Report No. OIG-AMR-27
Inspector General Memorandum
Background
Objectives,
Scope, and Methodology
Results of Audit
Exhibit A
UNITED STATES GOVERNMENT
NATIONAL LABOR RELATIONS BOARD
Office of Inspector General
MEMORANDUM
DATE: March 30,
1999
To: Louis Adams
Chief Information Officer
From: Aileen Armstrong
Inspector General
Subject: Final Audit Report - "Audit of NLRB's Efforts Regarding the Year 2000 Problem" (OIG-AMR-27)
Enclosed is a copy of the
Office of Inspector General (OIG) audit report in the above referenced
matter. A draft of our report was submitted to management for comment.
Your comments are included in their entirety at Exhibit A.
This review determined
that, for systems deemed Y2K compliant, that the Agency identified and
took appropriate action to correct mission critical systems. For systems
that were not Y2K compliant, we reviewed action plans and determined they
were reasonable and contained obtainable goals. The audit report contained
no recommendations for corrective action.
We appreciate the
cooperation extended to the OIG, specifically to auditor Joseph Young,
during the conduct of this audit. Should you have any questions or
comments concerning this report please do not hesitate to call upon us.
cc: The Board
Acting General Counsel
I. Background
The Agency administers the
principal labor relations law of the United States, the National Labor
Relations Act of 1935, as amended, which is generally applied to all
enterprises engaged in interstate commerce, including the United States
Postal Service, but excluding other governmental entities as well as the
railroads and the airline industries. The National Labor Relations Board
(NLRB) performs its mission by: (1) conducting secret ballot elections to
determine if a group of employees wishes to be represented, for collective
bargaining purposes, by a labor organization; (2) adjudicating
representation issues if the parties cannot reach agreement; (3)
investigating charges of unfair labor practices filed by the public with
the Agency; (4) prosecuting, if the parties cannot settle and reach an
agreement, those cases of unfair labor practices which the Agency
determined to have merit; and (5) adjudicating those unfair labor practice
cases which the Agency litigates.
In a sense, NLRB is two
entities within one Agency. The General Counsel investigates unfair labor
practices and litigates before the Board side of the Agency. The Board is
judicial in nature and includes Administrative Law Judges whose decisions
may be appealed by any of the parties, including the General Counsel, to
the five member Board appointed by the President. Board decisions may be
appealed, other than by the General Counsel, to the US Courts of Appeals
and the Supreme Court. By delegation from the Board, the General Counsel
represents the NLRB in those cases and in matters before Bankruptcy and
District Courts. The Regional Offices coordinate secret ballot elections
under the supervision of the Board, investigate unfair labor practice
charges, and prosecute complaints before the Board under the authority of
the General Counsel. The NLRB responds to matters brought before it and
does not initiate cases on its own.
In an effort to save computer storage
space many programs were designed with a two digit field to identify the
year. The result of a two digit year is that many systems will not be able
to differentiate between the years 1900 and 2000. This is commonly
referred to as the Year 2000 Problem or Y2K.
To ensure that information systems will
function in the new millennium, agencies should: inventory mission
critical systems (MCS); ascertain whether they are Y2K compliant; and
develop plans to remedy mission critical systems that are not compliant.
Many Federal agencies, including the NLRB, are required to make quarterly
reports to the Office of Management and Budget identifying their progress
in this regard.
The Agency has appointed a Y2K Project
Manager, who reports directly to the Chief Information Officer, to ensure
that all MCS are Y2K compliant. The Y2K Project Manager is responsible for
tracking identified systems through the Y2K Conversion Model established
by OMB. The NLRB has identified 33 mission critical systems that must be
Y2K compliant. These systems are used for both administrative and
financial management, and support the case handling process.
II. Objectives, scope, and methodology
This audit evaluated the National Labor
Relations Board's efforts in identifying Year 2000 (Y2K) problems and the
actions taken or planned to ensure that MCS will function in the new
millennium. Our audit reviewed: the methodology used to determine whether
mission critical systems were Y2K compliant; budget requests relating to
correcting Y2K problems; efforts taken or planned to correct and validate
that MCS are Y2K compliant; and contingency plans relating to systems that
have not been fixed. Our audit did not assess whether systems identified
by the Agency as MCS were mission critical, but limited our work to
verifying that the identified systems were Y2K compliant.
During the audit we identified and
reviewed requirements and guidance provided by the Office of Management
and Budget and the General Accounting Office in order to identify Agency
responsibilities and best practices for managing the Y2K problem.
We reviewed documents and met with Agency
officials responsible for managing and implementing Y2K efforts and with
program officials from "end user" offices in order to identify
actions taken to: determine whether MCS were Y2K compliant; develop and
execute plans to bring systems into compliance; verify that system were
Y2K compliant; and develop contingency plans for MCS that are not yet Y2K
compliant. We also assessed Agency budget requests relating to the Y2K
effort.
Our audit scope included all efforts made
by the Agency to identify and repair Y2K problems through the period
ending March 16, 1998.
The audit was performed in accordance with
generally accepted Government auditing standards at the NLRB's
Headquarters from November 1998 through March 1999.
III. RESULTS OF AUDIT
A. Mission
Critical Systems
The Agency identified 33 MCS. We verified
that the software for 20 of the 33 systems was Y2K compliant. Full system
compliance would be contingent on the Agency making applicable computer
hardware Y2K compliant. Agency efforts to make hardware Y2K compliant are
addressed later in this report. Our verification work included reviewing
documentary evidence, observing the testing process, and interviewing
system end users. The 20 systems are identified below.
Statistical Analysis Monthly
Processing System (STAMPS) -
Measures monthly regional office performance.
Work-in-Progress - Publishing database of an index of Board
decisions.
R-Case System - Publishing database of an index of
representation cases.
ULP System - Publishing database of an index of unfair
labor practice cases.
FOIA - Legal research tool for tracking FOIA
information and status.
CiteNet - Online search of the Work-in-Progress
database.
Regional Office Budget System (ROBS) - Tracks Regional Office budget information.
Headquarters ROBS - Produces management expenditure and budget
reports.
Headquarters ROBS Snapshot - Produces budget reports at different points in
time.
Headquarters ROBS Import - Collects and consolidates regional budget
data.
Operations Management Executive
Assistant (OMEX) - Tracks
changes in employee status.
Operations Management Congressional
System - Tracks information
requests submitted by members of Congress.
Appellate Court - Tracks cases assigned to the Appellate Court
Branch.
Headquarters Access - A database consisting of regional office
information downloaded from the CHIPS mainframe which can be accessed by
Headquarters employees.
Office of Appeals - Tracks cases assigned to the Office of
Appeals.
Regional CHIPS - Tracks cases in Regional Offices.
Backpay - Processes payments to discriminatees of unfair
labor practices.
Personnel/Payroll History - Contains data on NLRB employees and includes
items such as promotions, awards, assignments, performance, salary,
deductions, and leave.
Autopers - Used by the Personnel Branch to track the
employee appraisal process.
EEO/Handicap Statistical Reporting - Contains statistical data on accessions,
promotions, and assignments profiled by minority group designation,
PATCO, occupational series, and pay grades.
Agency officials report that the following
7 MCS were made Y2K compliant after we completed our audit fieldwork. We
have not verified that these 7 systems are Y2K compliant.
Supreme Court - Tracks cases assigned to the Supreme Court
Branch.
Special Litigation - Tracks cases assigned to the Special
Litigation Branch.
CHIPS Headquarters - Consolidates and manipulates raw case data
received from Regional Offices.
QUICKJOB - Used to process various information requests.
SF-52 - Tracks Agency personnel actions.
Executive Secretary System - Tracks cases assigned to the Office of
Executive Secretary, which manages cases before the five member Board.
Procurement Management Information
System - Used to generate
purchase orders and monitor procurement actions.
Agency officials claim they are on
schedule to make the following 5 MCS compliant by March 31, 1999. We have
reviewed their action plan and conclude that their goal is attainable.
Automated Full Time Equivalent - Used by the Budget Office to track Agency
Full Time Equivalents.
Division of Judges - Tracks cases assigned to the Division of
Judges.
Division of Advice - Tracks cases assigned to the Division of
Advice.
Docket and Order - Tracks case assignments and maintains data
needed to produce tables used for the NLRB Annual Report.
Office of Representation Appeals - Tracks cases assigned to the Office of
Representation Appeals.
The Agency does not plan to have the
Financial Management Information Accounting System (FMIAS) Y2K compliant
by March 31, 1999. FMIAS is the Agency's accounting system which is used
to process and report budget and financial transactions. Actions needed to
bring FMIAS into compliance include upgrading its compiler and changing
the source code of several program modules. The Agency estimates Y2K
compliance for FMIAS by May 1999. The Agency's contingency plan includes
using either the Microcomputer Accounting Data Entry (MADE) system or the
Backpay system, both of which are Y2K compliant, to process vendor
payments. The MADE is the PC based front end of FMIAS. The Backpay System
is an automated system used to process payments to discriminatees in
unfair labor practice cases.
B. Hardware
and Commercially Available off the Shelf Software
As part of the NLRB's computer maintenance
contract, the service provider prepared a report identifying Agency
hardware and software, and whether it is Y2K compliant. We verified much
of their analysis with information provided on vendor web sites.
1. Hardware
As of January 1999 the Agency had 2,151
PCs and 1,843 employees. Of the 2,151 PCs, 1,228 were Pentium or higher
and deemed Y2K compliant by both the computer maintenance contractor and
the equipment manufacturer. Most of the remaining 923 PCs had 486
processors which would require minimal modification to be Y2K compliant.
The Agency plans to deploy 680 Pentium PCs by August 1999. This deployment
is planned to provide all computer users with Pentium PCs and eliminate
the need to bring the 486 machines into Y2K compliance.
2. Software
Computer software used by the Agency to
run its networks, perform legal research, and communicate using email was
deemed not Y2K compliant by the contractor that provided the Agency with
computer maintenance services. Agency officials report that they have
either upgraded or replaced these packages with Y2K compliant software as
shown below.
Non Y2K Compliant Software
Upgrade or Replacement Software
Novel NetWare (Version 3.12 and 4.1)
Novel NetWare, Ver 4.11
Lexis-Nexis (Legal Research)
Westlaw
Lotus: cc Mail, Version 6
Lotus: cc Mail, Version 8
C. Data
Exchanges
The Agency identified data exchanges with
six external agencies: Department of Agriculture National Finance Center (NFC),
Department of Health and Human Services (HHS), Department of Treasury
(Treasury), General Services Administration (GSA), Internal Revenue
Service (IRS), and Social Security Administration (SSA). The NLRB has sent
letters to each of the above mentioned agencies to ascertain whether
actions need to be taken to assure Y2K compliance. The NLRB has not heard
from the General Services Administration and has mailed out a second
request to them. The NLRB has received confirmation from HHS, SSA, and the
IRS that there were no outstanding Y2K issues. Agency testing of
interchanges with NFC verified that there were no outstanding Y2K issues
with them.
The Financial Management Information
Accounting System (FMIAS) needs to upgrade data transmission software to
be compatible with upgraded software used by the Department of Treasury.
Agency officials estimate a May 1999 completion date for these upgrades.
D. Independent
Verification and Validation
Verification and validation of systems'
Y2K compliance was performed by the Agency personnel responsible for
making systems Y2K compliant. Generally these were the computer
programmers responsible for the general operation and maintenance of the
computer system. These verification efforts are consistent with
information reported in the Agency's quarterly reports to OMB.
During our audit we reviewed evidence, for
systems deemed Y2K compliant, that the Agency: (1) tested to ensure that
program modules performed to required specifications (unit testing); (2)
information system components (stand alone PCs) function properly and in
accordance with required specifications (integration testing); and (3) the
overall test results generated by the information systems were performed
accurately and without any system failures (system testing). We contacted
Agency program officials to verify Y2K compliance and their involvement in
the correction and validation process.
E. Budgetary
Resources
OMB Circular A-11 used to prepare Fiscal
Year 1998 budget requests states, " Agencies are required to report
the total estimated obligations for the agency for each of the years PY
through BY+2 for preparing agency systems to operate smoothly through the
millennium change." It further states, " The estimates will
cover the costs of identifying necessary changes, evaluating the cost
effectiveness of making those changes (fixed or scrap decisions), making
changes, testing systems, and contingencies for failure recovery. Do not
include obligations for upgrades or replacements that would otherwise
occur as part of the normal system lifecycle." Agency officials
received approval from OMB to combine efforts relating to Y2K and the Case
Activity Tracking System (CATS) initiative. The CATS initiative is a
comprehensive information system designed to replace existing information
systems, and provide legal research, litigation support, and Agency forms.
The Agency's quarterly report to OMB dated
April 16, 1998, identifies that the Agency's plan for Y2K compliance
included replacing legacy systems with CATS. In their quarterly report to
OMB dated August 15, 1998, the Agency had determined that the CATS would
not be fully implemented by the Y2K compliance deadline. Therefore, CATS
can not be viewed as a Y2K solution. Agency Y2K efforts to identify,
evaluate, make necessary changes, test and verify, and develop contingency
plans were performed by Agency personnel. Additional budgetary resources
were not used for the Y2K project.
Exhibit A
UNITED STATES GOVERNMENT
National Labor Relations Board
Division of Administration
MEMORANDUM
To:  Aileen Armstrong
From:  Louis B. Adams
Chief
Information Officer
Date:  March 25, 1999
Subject:  Comments on Draft Report "Audit of NLRB's Efforts
Regarding the Year 2000 Problem" (OIG-AMR-27)
We have reviewed the draft and have found no factual statements or
conclusions about which we disagree or wish to provide comments.